JULY 27, 2010
  AUDIT REPORT




                                                      OFFICE OF AUDITS




  AUDIT OF NASA’S RECOVERY ACT PROCUREMENT
       ACTIONS AT JOHNSON SPACE CENTER,
    GODDARD SPACE FLIGHT CENTER, LANGLEY
  RESEARCH CENTER, AND AMES RESEARCH CENTER




                                           OFFICE OF INSPECTOR GENERAL




                                                      National Aeronautics and
                                                          Space Administration




  REPORT NO. IG-10-017 (ASSIGNMENT NO. A-09-009-05)
JULY 27, 2010




                                                                                      OVERVIEW

       AUDIT OF NASA’S RECOVERY ACT PROCUREMENT ACTIONS
        AT JOHNSON SPACE CENTER, GODDARD SPACE FLIGHT
              CENTER, LANGLEY RESEARCH CENTER, AND
                      AMES RESEARCH CENTER

                                                                                        The Issue

   The American Recovery and Reinvestment Act of 2009 requires an unprecedented level
   of transparency and accountability to ensure that Recovery Act funds are expended in
   accordance with the requirements of the Act and to make information about these
   expenditures readily available to the public. In support of these objectives, the Act
   requires Federal Offices of Inspector General to assess their agency’s compliance with the
   Recovery Act provisions set forth in the Office of Management and Budget’s
   Implementing Guidance1 (OMB Guidance), which details requirements that Agencies
   must follow in awarding and modifying contracts, grants, and cooperative agreements
   using Recovery Act funds. In addition to the OMB Guidance, NASA developed new
   Procurement Information Circular (PIC) and Grant Information Circular (GIC) to provide
   additional guidance for contract, grant, and cooperative agreement actions using
   Recovery Act funds.

   The NASA Office of Inspector General (OIG) examined Recovery Act-funded
   procurement actions NASA awarded from February 17, 2009 (when the Recovery Act
   was enacted), through November 30, 2009. We reviewed contracts, cooperative
   agreements, and contract modifications to determine NASA’s compliance with Recovery
   Act requirements and with NASA and OMB guidance. We performed our audit work at
   four NASA Centers, reviewing 28 procurement actions totaling $432 million in Recovery
   Act funds. The procurement actions involved 11 programs, projects, and activities (see
   Table 1).




   1
       Office of Management and Budget, “Updated Implementing Guidance for the American Recovery and
       Reinvestment Act of 2009” (M-09-15, April 3, 2009).



REPORT NO. IG-10-017
                                                                                                  OVERVIEW

     Table 1. Recovery Act-Funded Awards to 11 NASA Programs and Projects
                Contract
      NASA       Amount
      Center    (million)                       Recipient Program/Project
     Johnson      $201.3     Cross-Agency Support: Institutional Investments Program
                             Orion Project
     Goddard      $193.5     Landsat Data Continuity Mission
                             Global Precipitation Measurement (GPM) Project
                             Glory Project
                             NASA/NOAA Climate Sensors Investment: Total and Spectral Solar
                             Irradiance Sensor (TSIS) Instrument
                             James Webb Space Telescope (JWST) Project
     Langley       $21.2     NASA/NOAA Climate Sensors Investment: Clouds and the Earth’s
                             Radiant Energy System Flight Module 6 (CERES FM6) Instrument
     Ames          $16.3     Unitary Plan Wind Tunnel (UPWT) Facility Upgrade Project
                             High-End Computing Capability (HECC) Project
                             Wildfire Research and Applications Partnership (WRAP) Activity

     For each of the awards and modifications, we analyzed the contract and cooperative
     agreement files and reviewed each Center’s process for modifying the contracts and
     awarding the cooperative agreement under the Recovery Act requirements outlined in the
     OMB and NASA guidance. Details of the audit’s scope and methodology are in
     Appendix A.

     Results

     Of the 28 procurement actions we reviewed, all 28 complied with the OMB Guidance.
     However, 3 of the procurement actions did not fully comply with NASA guidance
     governing the use of Recovery Act funds.

     Specifically, we found that the contract modification files for the Orion Project at
     Johnson Space Center and the Landsat Data Continuity Mission at Goddard Space Flight
     Center did not contain all of the supporting documentation to demonstrate that the
     negotiations had taken place between NASA and the respective contractors for the
     Recovery Act work. NASA’s PIC2 states that contracting officers shall document
     negotiations for Recovery Act work in the contract file. NASA procurement staff told us
     that they conducted negotiations with the Orion and Landsat Data Continuity Mission
     contractors but did not fully document these negotiations in the contract file because they
     believed conducting verbal/e-mail negotiations was sufficient. However, by not fully
     documenting the negotiations in the contract file NASA officials do not have all of the
     evidence to support that they communicated to the contractor that this portion of the work

     2
         NASA Procurement Information Circular 09-06D, “Contracting With Recovery Act Funds,” October 15,
         2009.



ii                                                                                   REPORT NO. IG-10-017
OVERVIEW

   would be paid for using Recovery Act funds. As a result, NASA runs the risk that
   Recovery Act funds expended on the Orion Project and Landsat Data Continuity Mission
   may not be used for their intended purpose.

   The third procurement action that did not fully adhere to NASA guidance pertained to the
   award of a cooperative agreement. In this case, Ames Research Center (Ames)
   procurement staff did not require California State University-Monterey Bay3 (California
   State) to submit an updated schedule of Recovery Act task milestones with their revised
   proposal for the Wildfire Research and Applications Partnership Activity funded with
   Recovery Act funds. California State originally submitted a proposal for non-Recovery
   Act NASA funds to conduct research in collaboration with NASA to improve wildfire
   response. The proposal was not selected for award. When Recovery Act funds became
   available, Ames awarded a cooperative agreement based on the previously submitted
   proposal.4 Ames and California State agreed to a two year period of performance,
   however, Ames did not direct California State to file a Recovery Act task schedule to
   reflect the new milestones and period of performance. NASA’s GIC, which applies to
   grants and cooperative agreements, states that NASA should require updated proposals
   that include the minimal amount of detail necessary to execute an award. Ames
   procurement personnel did not require California State to file an updated schedule
   because, in their view, it was not a necessary element of the revised proposal and was not
   specifically required by the GIC. However, without an updated schedule to demonstrate
   Recovery Act task milestones, Ames would not have a key element with which to
   measure California State’s performance. Since NASA may award up to 10 cooperative
   agreements to other Recovery Act recipients, it is imperative that updated schedules be
   required for all cooperative agreement awards to ensure accountability and transparency.

   Subsequent to our review, Ames provided the OIG with a copy of the updated schedule
   they received from California State, reflecting the new period of performance for the
   cooperative agreement.

                                                                          Management Action

   To ensure accountability and transparency in the use of Recovery Act funding, we
   recommend that NASA’s Recovery Act Implementation Executive require that the Orion
   Project and Landsat Data Continuity Mission fully comply with requirements to
   document all contract negotiations in writing and include the documentation in the
   contract file. We also recommend that the Recovery Act Implementation Executive


   3
       The cooperative agreement was awarded to The University Corporation at Monterey Bay on behalf of
       California State University-Monterey Bay.
   4
       NASA Grant Information Circular 09-03A, “Implementation of the American Recovery and Reinvestment
       Act of 2009,” August 28, 2009. The GIC states that Recovery Act funds may be used to fund proposals
       not previously awarded provided the date of the non-selection decision has not exceeded 6 months. The
       award of the cooperative agreement to California State University-Monterey Bay was within the 6-month
       limit.



REPORT NO. IG-10-017                                                                                           iii
                                                                                         OVERVIEW

     remind contracting officers of the importance of ensuring that contract negotiations are
     properly documented.

     In addition, we recommend the Recovery Act Implementation Executive require grant
     officers to obtain a schedule of milestones or other appropriate documentation to ensure
     that the awardee is measured against the accountability aspects of the Recovery Act and
     to demonstrate that the awardee understands the terms and conditions of the Recovery
     Act award.

     In NASA’s response to our draft report, received July 23, 2010, the Recovery Act
     Implementation Executive states that the Agency generally concurs with the observations
     noted in this report and has taken action to address our recommendations to include
     adding the requisite documentation to the procurement files.

     However, the response also indicates the Agency has concerns with one of our
     observations, which states that without proper documentation to support negotiations with
     the contractors, Recovery Act funds might not be used for their intended purpose. NASA
     believes that detailed negotiations and the execution of the contract modifications by both
     parties results in minimal risk that Recovery Act funds would not be used for their
     intended purpose. Further, NASA feels if the funds were not used for their intended
     purpose, the contractor would be in default.

     While we understand the Agency’s concerns, we believe maintaining complete
     documentation of all negotiations in the contract files provides evidence of the specific
     tasks agreed upon between NASA and the contractor. Such documentation would also
     assist in supporting NASA’s position should a dispute arise with the contractors at a later
     date, thereby protecting the interests of the Agency.

     The Recovery Act Implementation Executive’s actions are responsive to our
     recommendations. Therefore, the recommendations are resolved and we will close the
     recommendations upon verifying proper implementation of the recommended corrective
     actions.




iv                                                                           REPORT NO. IG-10-017
JULY 27, 2010




                                                       CONTENTS

   INTRODUCTION
      Background _________________________________________ 1
      Objectives __________________________________________ 2

   RESULTS
      Three Recovery Act Procurement Actions Did Not Follow
         NASA Guidance ___________________________________ 4

   APPENDIX A
      Scope and Methodology _______________________________ 11
      Review of Internal Controls ____________________________ 12
      Prior Coverage ______________________________________ 12

   APPENDIX B
      Programs/Projects Reviewed ___________________________ 14

   APPENDIX C
      Report Distribution ___________________________________ 21




REPORT NO. IG-10-017
JULY 27, 2010



                                                                      INTRODUCTION


Background

   On February 17, 2009, the American Recovery and Reinvestment Act of 2009 (Recovery
   Act) was signed into law. The Recovery Act seeks to strengthen the U.S. economy
   through the creation of new jobs, spur technological advances in science and health, and
   invest in infrastructure to provide long-term benefits. The Recovery Act also requires an
   unprecedented level of transparency and accountability to ensure that Recovery Act funds
   are expended in accordance with the requirements of the Act and to make information
   about the expenditure of Recovery Act funds readily available to the public.

   NASA received $1 billion under the Recovery Act, allocated to the following mission
   areas:

          Science: $400 million to accelerate the development of the tier 1 set of Earth
          Science climate research missions recommended by the National
          Academies Decadal Survey and to increase the agency’s supercomputing
          capabilities.

          Aeronautics: $150 million for system-level research, development, and
          demonstration activities related to aviation, safety, environmental impact
          mitigation, and the Next Generation Air Transportation System.

          Exploration: $400 million to develop safe and robust capabilities for human space
          exploration and to stimulate efforts within the private sector to develop and
          demonstrate technologies that enable commercial human spaceflight capabilities.

          Cross-Agency Support: $50 million to restore NASA-owned facilities damaged by
          natural disasters in 2008.

   We examined 28 procurement actions awarded to 11 programs, projects, and activities
   totaling $432 million in new contracts, cooperative agreements, and modifications to
   existing contracts funded with Recovery Act funds. Our audit locations included the
   Johnson Space Center, Goddard Space Flight Center, Langley Research Center, and
   Ames Research Center. Table 2 identifies the programs/projects we reviewed at each
   Center. See Appendix B for a more detailed description of the programs and projects
   examined in this review.




REPORT NO. IG-10-017                                                                           1
                                                                                                  INTRODUCTION

                         Table 2. Recovery Act Procurement Actions Reviewed
        NASA         Mission                                Types of Procurement                    Amount
        Center        Area           Program/Project          Actions Reviewed                      (million)
        Johnson     Cross-         Cross-Agency Support:               8 newly awarded                  $35.4
                    Agency         Institutional Investments Program   contracts
                    Support                                            5 contract modifications
                    Exploration    Orion Project                       1 contract modification         $165.9
        Goddard     Science/       Landsat Data Continuity Mission     3 contract modifications         $44.25
                    Earth          Global Precipitation                2 contract modifications         $32.0
                    Science        Measurement Project
                                   Glory Project                       1 contract modification          $16.0
                                   NASA/NOAA Climate Sensors           1 contract modification          $26.3
                                   Investment: Total and Spectral
                                   Solar Irradiance Sensor
                    Science/       James Webb Space Telescope          2 contract modifications         $75.0
                    Astrophysics   Project
        Langley     Science/       NASA/NOAA Climate Sensors           1 contract modification          $21.2
                    Earth          Investment: Clouds and the
                    Science        Earth’s Radiant Energy System
                                   Flight Module 6 (CERES FM6)
                                   instruments
         Ames       Aeronautics    Unitary Planned Wind Tunnel         1 contract modification           $9.0
                                   Facility
                    Science/       High-End Computing Capability       2 contract modifications          $6.0
                    Earth          Project
                    Science        Wildfire Research and               1 newly awarded                   $1.3
                                   Applications Partnership Activity   cooperative agreement
      Total                                                                                            $432.3
    Source: NASA Recovery Act Contract Files


Objectives

    Our overall audit objective was to determine whether NASA awarded contracts,
    cooperative agreements, and contract modifications in compliance with the Recovery Act
    provisions set forth in OMB and NASA guidance for grants and procurements.

    Specifically, we examined whether NASA
                properly posted funding opportunities to the NASA and Recovery.gov Web sites;
                structured award documents to result in meaningful and measurable outcomes
                consistent with goals of the Recovery Act;
                included the appropriate Recovery Act clauses on the contract, contract
                modification, and cooperative agreement award documents;
                executed Recovery Act awards in a timely manner;

    5
        The Landsat Data Continuity Mission received $63.4 million in Recovery Act funds. At the time of our
        review, $44.2 million had been awarded.



2                                                                                        REPORT NO. IG-10-017
INTRODUCTION


          documented justification for the type of contract awarded and ensured the
          justification aligned with contract objectives and Recovery Act goals; and
          properly awarded and justified any contract that was other than competitively
          awarded.

   See Appendix A for details of the audit’s scope and methodology, our review of internal
   controls, and a list of prior audit coverage.




REPORT NO. IG-10-017                                                                         3
                                                                                            RESULTS



                                                                    THREE RECOVERY ACT
                                                               PROCUREMENT ACTIONS DID
                                                                     NOT FOLLOW NASA
                                                                             GUIDANCE

              Based on our review of 28 procurement actions, we determined that NASA’s
              Recovery Act-funded awards generally complied with OMB and NASA guidance,
              although we identified 3 procurement actions that did not fully comply with NASA
              guidance. For each contract action, we reviewed the contract file to ensure that,
              when practical, firm-fixed-price contracts were awarded, contracts were competed,
              and small business participation was considered. We noted that 6 of the 28
              procurement actions were not competitively awarded; however, these awards were
              properly justified. The 6 procurement actions were awarded to small disadvantaged
              businesses and had contract values of less than the $3.5 million threshold that
              requires competition according to Federal regulations.6 We also reviewed the
              contract files to ensure they contained appropriate Recovery Act clauses in the award
              documents; that the contract requirements, including cost and schedule information,
              were separate for each Recovery Act action; and that each NASA Center complied
              with the requirements for the pre-award and pre-solicitation process outlined in the
              OMB Guidance and NASA Circulars. In addition, we reviewed the contract and
              contract modification files to ensure the Recovery Act tasks identified could be easily
              tracked and segregated from work funded by non-Recovery Act funds. Finally, we
              reviewed the contract modification files for documentation of communications
              between NASA procurement officials and the respective contractors regarding their
              ability to perform the work while adhering to the terms of the Recovery Act.


Two Contract Negotiations Did Not Fully Comply With NASA
  Guidance

    Two of the 28 contract files we reviewed did not contain full documentation of
    negotiations between NASA and the contractor to modify Recovery Act-funded
    procurement actions. Specifically, the contract files for the Orion Project at Johnson and
    the Landsat Data Continuity Mission at Goddard did not contain all of the supporting
    documentation of the negotiations held between NASA and the respective contractors
    regarding the work to be performed. Procurement officials for both projects explained
    that they had conducted multiple negotiations with the contractors regarding the scope
    and cost of the Recovery Act work; however, they did not document these negotiations in
    the contract modification files. NASA’s Procurement Information Circular7, states that
    contracting officers shall document negotiations for Recovery Act work in the contract

    6
        Federal Acquisition Regulation (FAR), Part 19.805-1.
    7
        PIC 09-06D, “Contracting With Recovery Act Funds,” October 14, 2009.



4                                                                              REPORT NO. IG-10-017
RESULTS

   file. Specifically, section 3, paragraph e, states that negotiation documents, which might
   include a detailed pre- and post-negotiation memorandum for large, new awards, or a
   memorandum to the file for modifications to existing awards, shall indicate that pricing
   of work to be performed with Recovery Act funds was negotiated or agreed upon as a
   stand-alone effort that is separately identifiable.

   Project personnel stated that they were unaware of the requirements for documenting the
   negotiations in a written summary and believed that verbal or e-mail negotiations sufficed
   because the procurement actions were modifications to existing contracts and the scope
   and pricing of the work was outlined in the contract modification document. However,
   because they did not document these verbal or e-mail negotiations in the contract file,
   NASA officials did not have the necessary supporting documentation that NASA staff
   communicated to the contractor that this portion of the work would be performed using
   Recovery Act funds. Subsequently, the Orion Project and Landsat Data Continuity
   Mission run the risk that Recovery Act funds may not be used for their intended purpose.


One Cooperative Agreement Did Not Fully Comply with NASA
 Guidance

   California State University-Monterey Bay (California State) originally submitted a proposal
   for the Wildfire Research and Applications Partnership (WRAP) Activity in response to a
   NASA Broad Agency Announcement.8 However, the proposal was not selected for award at
   the time of original submission. When Recovery Act funds became available, Ames
   Research Center awarded a cooperative agreement to California State based on the
   previously submitted proposal. NASA policy states that Recovery Act funds may be used to
   fund proposals not previously awarded provided the date of the non-selection decision has
   not exceeded 6 months. In addition, the recipient must agree to all terms and conditions
   required by the Recovery Act and must be provided a reasonable opportunity to revise its
   proposal. If these conditions are met, the grant or cooperative agreement is determined to be
   awarded competitively. We verified that the date of non-selection had not exceeded the 6-
   month time limit, that there was adequate documentation showing California State agreed
   with all Recovery Act clauses and conditions, and they had the opportunity to revise their
   proposal. However, the cooperative agreement did not contain a revised schedule that would
   allow NASA to measure performance.

   We reviewed the revised proposal submitted by California State in relation to the
   Recovery Act portion of the cooperative agreement. Ames and California State agreed to
   a 2-year period of performance, however, the table with the specific activities and dates
   for when these activities would be accomplished had not been updated to reflect the new
   period of performance. NASA’s Grant Information Circular9 states that NASA should

   8
       Broad Agency Announcement is a competitive solicitation procedure used to obtain proposals for basic
       and applied research not related to the development of a specific system or hardware procurement.
   9
       GIC 09-03A, “Implementation of the American Recovery and Reinvestment Act of 2009,” August 28,
       2009.



REPORT NO. IG-10-017                                                                                          5
                                                                                                  RESULTS

    request updated proposals that include the minimal amount of detail necessary to execute
    an award. Ames procurement personnel stated that California State did not submit a
    revised schedule with their revised proposal. In the view of Ames procurement
    personnel, the schedule was not a necessary element of the revised proposal. Ames
    procurement personnel explained that they measure performance against the project
    objectives listed in the proposal and require the recipient to provide monthly progress
    reports. They also stated that the nature of the cooperative agreement requires NASA to
    have an integral role in the work and, in complying with that requirement, they will
    monitor California State’s achievement of the milestones throughout the period of
    performance.

    We believe the updated schedule is an integral part of the cooperative agreement because
    the schedule is a necessary metric for Ames to use in measuring performance and
    ensuring California State is successfully completing activities and objectives funded with
    Recovery Act funds. Without an updated schedule, the ability of Ames procurement
    personnel to measure performance against milestones is impaired.

    Subsequent to our review, Ames procurement personnel provided the OIG with a copy of
    the updated schedule from the California State University-Monterey Bay reflecting the
    new period of performance for the cooperative agreement. Since the schedule is an
    integral part of the cooperative agreement, we believe NASA should ensure that
    schedules are included as a part of all future awards proposals.


Federal and NASA Recovery Act Guidance

    OMB Guidance. OMB Guidance10 details specific requirements for awarding contracts
    under the Recovery Act. The guidance emphasizes the importance of contract type,
    competition, and small business participation as well as the unique transparency
    requirements for the pre-award and pre-solicitation process. Specifically, OMB Guidance
    requires the use of firm-fixed-price contracts and competition to the maximum extent
    possible. Firm-fixed-price contracts provide maximum incentive for the contractor to
    control costs and perform effectively. Contractors competing for contracts saves taxpayer
    money, improves contractor performance, curbs fraud, and promotes accountability for
    results. The Guidance allows agencies to use contract types other than firm-fixed-price
    and to award contracts on a non-competitive basis; however, the agencies must document
    the reasons for doing so and post this justification on Recovery.gov. Under OMB
    Guidance, agencies must provide maximum practicable opportunities for small
    businesses to compete for contracts and to participate as subcontractors in contracts
    awarded by agencies. Finally, pre-solicitation notices and contract awards must be posted
    on FedBizOpps.gov (https://www.fbo.gov/) and include the word Recovery in the title.



    10
         OMB, “Updated Implementing Guidance for the American Recovery and Reinvestment Act of 2009,”
         April 3, 2009.



6                                                                                  REPORT NO. IG-10-017
RESULTS

   Procurement Information Circular. NASA’s PIC 09-06 provides detailed guidance for
   NASA’s procurement community on implementation of the Recovery Act. For example,
   the Circular contains general principles along with more detailed requirements that
   contracting officers and other procurement personnel must follow when awarding a
   contract or modifying an existing contract using Recovery Act funds. In the PIC, the
   requirements are specified as Pre-award Considerations, Posting Requirements, Reporting
   Requirements, Audit Rights, Construction Contracts, Communication, and Invoicing.
   The Agency issues revisions to PIC 09-06, as necessary to provide the latest Recovery
   Act guidance to NASA procurement officials. The current revision, 09-06G was issued
   on April 7, 2010.

   Grant Information Circular. NASA’s GIC 09-03 provides guidance to the grant- and
   cooperative agreement-issuing community regarding access to Recovery Act funds. The
   GIC contains general principles along with more detailed requirements that grant officers
   and other personnel must follow when awarding a grant or cooperative agreement funded
   with Recovery Act funds. The requirements are identified as General Principles,
   Requisition Requirements, Pre-Award considerations, Posting Requirements, Special
   Terms, Communication, and Payment. Each section has more detailed guidance for grant
   officers.11

   The GIC requires that grant officers or the requesting office set distinct parameters and
   measurable performance requirements when generating a requisition to initiate a grant or
   cooperative agreement using Recovery Act funds. In addition, the GIC states that grant
   officers and the requesting office must be able to quantify and assess the quality of the
   research, education, training, or other public outreach effort during the specified
   increment or parameters and also able to specify performance in a manner that permits
   evaluation and review of the effort performed. The Agency issues revisions to GIC 09-03
   as necessary to provide the latest Recovery Act guidance to NASA procurement officials.
   The current revision, 09-03B, was issued on December 24, 2009.


Conclusion

   Based on our review of 28 procurement actions, we determined that NASA’s Recovery
   Act-funded awards generally complied with OMB and NASA guidance with the
   exception of 3 actions that did not fully follow NASA guidance.

   The contract files for the Orion Project at Johnson and for the Landsat Data Continuity
   Mission at Goddard did not contain full documentation of the negotiations between
   NASA and the respective contractors regarding the Recovery Act work. NASA PIC 09-
   06D states that contracting officers shall document negotiations for Recovery Act work in
   the contract file. However, the project personnel did not document the verbal or e-mail
   negotiations in the contract file because they mistakenly believed that the verbal or e-mail
   negotiations were sufficient to meet the documentation requirement. Because there is no
   11
        Grant officers are responsible for overseeing both grants and cooperative agreements.



REPORT NO. IG-10-017                                                                              7
                                                                                        RESULTS

    documentation of the negotiations in the contract files, NASA officials cannot support
    that the contractors were informed that this portion of the work would be performed using
    Recovery Act funds. Without proper documentation, the Orion Project and the Landsat
    Data Continuity Mission cannot ensure that project funds will be used for their intended
    purposes.

    In addition, Ames awarded a cooperative agreement but failed to require the awardee to
    provide an updated performance schedule. Consequently, Ames did not have measurable
    criteria to evaluate California State’s performance. Subsequent to our review, Ames
    provided a copy of the updated schedule from California State reflecting the new period
    of performance for the cooperative agreement. Since NASA may award up to 10
    cooperative agreements to other Recovery Act recipients, future cooperative agreement
    awards should require updated schedules.


Recommendations, Management’s Response, and Evaluation of
  Management’s Response

Recommendation 1. The Recovery Act Implementation Executive should require Orion
Project and Landsat Data Continuity Mission personnel to comply with requirements to
document all contract negotiations involving Recovery Act funds in writing in the contract
file.

Recommendation 2. The Recovery Act Implementation Executive should periodically
remind contracting officers of the importance of properly documenting contract negotiations.

Recommendation 3. The Recovery Act Implementation Executive should require grant
officers to obtain a schedule of milestones or other appropriate documentation to ensure that
the awardee is measured against the accountability aspects of the Recovery Act, and to
demonstrate that the awardee understands the terms and conditions of the Recovery Act
award.

    Management’s Response. Prior to formally responding to the draft report, NASA
    provided technical corrections for our consideration and we updated the draft as
    appropriate. In NASA’s response, received July 23, 2010, the Recovery Act
    Implementation Executive states that the Agency generally concurs with the observations
    noted in this report and has taken action to address our recommendations to include
    adding the requisite documentation to the procurement files.

    However, the response also indicates that the Agency has concerns with one of our
    observations, which states that without proper documentation to support negotiations with
    the contractors, Recovery Act funds expended on the Orion Project and Landsat Data
    Continuity Mission might not be used for their intended purpose. NASA believes the
    detailed discussions to negotiate the Recovery Act work with the two contractors and the
    execution of the contract modifications by both parties results in minimal risk that



8                                                                         REPORT NO. IG-10-017
RESULTS

   Recovery Act funds would not be used for their intended purpose. Further, NASA feels if
   the funds were not used for their intended purpose, the contractor would be in default.

   Evaluation of Management’s Response. While we understand the Agency’s concerns,
   we believe maintaining complete documentation of all negotiations in the contract files
   provides evidence of the specific tasks agreed upon between NASA and the Contractor.
   Such documentation would also assist in supporting NASA’s position should a dispute
   arise with the contractors at a later date, thereby protecting the interests of the Agency.

   The Recovery Act Implementation Executive’s planned actions are responsive to our
   recommendations. Therefore, the recommendations are resolved and we will close the
   recommendations after verifying proper implementation of the recommended corrective
   actions.




REPORT NO. IG-10-017                                                                             9
APPENDIXES



                                                                         APPENDIX A


Scope and Methodology

   We performed this audit from October 2009 through July 2010 in accordance with
   generally accepted government auditing standards. Those standards require that we plan
   and perform our work to obtain sufficient, appropriate evidence to provide a reasonable
   basis for our findings and conclusions based on the objectives. We believe that the
   evidence obtained during this audit provides a reasonable basis for our findings and
   conclusions based on our objectives.

   We reviewed 28 procurement actions totaling $432 million in Recovery Act funds issued
   from February 17, 2009, when the Recovery Act was signed, through November 30,
   2009. We performed our work at Johnson Space Center, Goddard Space Flight Center,
   Langley Research Center, and Ames Research Center because these four Centers had the
   largest number of Recovery Act procurement actions awarded or modified prior to
   November 30, 2009. The program and projects reviewed at Johnson include the Cross-
   Agency Support: Institutional Investment Program (8 new contracts and 5 modifications)
   and the Orion Project (one contract modified). At Goddard, we reviewed the Landsat
   Data Continuity Mission, Global Precipitation Measurement Project, Glory Project, the
   Total and Spectral Solar Irradiance Sensor project (part one of an agreement with the
   National Oceanic and Atmospheric Administration’s Climate Sensors Investment), and
   the James Webb Space Telescope Project (all had modified contracts). At Langley, we
   reviewed Clouds and the Earth’s Radiant Energy System Flight Module 6 (CERES FM6)
   instruments project (part two of an agreement with NOAA’s Climate Sensors Investment)
   (one contract modified). Finally, at Ames we reviewed the Unitary Plan Wind Tunnel
   Facility Project (one contract modified), the High-End Computing Capability Project (two
   contracts modified), and the Wildfire Research and Applications Partnership (WRAP)
   Activity (one cooperative agreement awarded).

   For our audit, we reviewed the following:
          American Recovery and Reinvestment Act of 2009, February 17, 2009
          OMB’s “Updated Implementing Guidance for the American Recovery and
          Reinvestment Act of 2009,” April 3, 2009
          Procurement Information Circular (PIC) 09-06D, “Contracting with Recovery Act
          Funds,” October 14, 2009
          Grant Information Circular (GIC) 09-03A, “Implementation of the American
          Recovery and Reinvestment Act of 2009,” August 28, 2009




REPORT NO. IG-10-017                                                                          11
                                                                                     APPENDIX A


Computer-Processed Data

     We did not use computer-processed data to perform this review.


Review of Internal Controls

     We reviewed internal controls as they relate to NASA’s process for awarding contracts,
     grants, and cooperative agreements and modifying contracts for Recovery Act-funded
     procurement actions. We met with the Recovery Act Implementation Executive and
     NASA Procurement officials to gain an understanding of NASA’s processes for awarding
     contracts, grants, and cooperative agreements, detailed in the Procurement Information
     Circular (PIC) and Grant Information Circular (GIC). We reviewed these Circulars to
     determine whether they documented the internal controls required to award contracts,
     grants, and cooperative agreements for the Recovery Act, and whether the controls were
     sufficient to ensure NASA was complying with Recovery Act provisions, OMB
     Guidance, and NASA policy. We interviewed procurement officials at Johnson,
     Goddard, Langley, and Ames and asked them to identify the internal control mechanisms
     in place at the Center level to ensure they were awarding contracts, grants, and
     cooperative agreements in compliance with the Recovery Act. In addition, we asked
     them to walk us through the award process and provide supporting documentation to
     ensure their internal controls were functioning effectively. As discussed in this report,
     NASA’s process for awarding Recovery Act contracts, grants, and cooperative
     agreements could be improved. Our recommendations, if implemented, will improve the
     controls over the Recovery Act award process.


Prior Coverage

     During the last 5 years, the NASA Office of Inspector General (OIG) and the Government
     Accountability Office (GAO) have issued two memoranda and four reports of particular
     relevance to the subject of this report. Unrestricted reports can be accessed over the
     Internet at http://oig.nasa.gov/audits/reports/FY10 (NASA OIG) and http://www.gao.gov
     (GAO).

     We considered the following memoranda in planning and performing our audit activities:

     “Final Memorandum on Analysis of NASA’s Final Program-Specific Recovery Act
     Plans” (IG-10-005, January 5, 2010)

     “Final Memorandum on Analysis of NASA’s Final Agency-Wide Recovery Act Plan”
     (IG-10-06, January 5, 2010)

     “Final Memorandum on Review of Open Audit Recommendations Affecting Recovery
     Act Activities” (IG-10-014, May 20, 2010)



12                                                                         REPORT NO. IG-10-017
APPENDIX A

   The following reports are related to the programs and projects we reviewed in our audit
   and were all issued within the last 5 years. The recommendations contained in these
   reports did not have an effect on the Recovery Act programs and projects we reviewed.

   Government Accountability Office

   “NASA: Assessments of Selected Large-Scale Projects” (GAO-10-227SP, February
   2010)

   National Aeronautics and Space Administration

   “The Landsat Program Is Not Meeting the Goals and Intent of the Land Remote Sensing
   Policy Act of 1992” (IG-09-021, September 2, 2009)

   “Final Memorandum on the Standing Review Board for Orion Crew Vehicle Project”
   (IG-08-018, April 28, 2008)

   “Final Memorandum on Audit of NASA’s Global Precipitation Measurement Project”
   (IG-08-016-R, March 31, 2008)




REPORT NO. IG-10-017                                                                         13
                                                                                                        APPENDIX B



                                                                           PROGRAMS/PROJECTS
                                                                                    REVIEWED


Johnson Space Center

     Cross-Agency Support: Institutional Investments Program. This Program received
     $50 million in Recovery Act funding to restore NASA-owned facilities damaged by
     natural disasters in 2008. The goal of the Cross-Agency Support: Institutional
     Investments Program is to strategically invest funds to meet the Agency’s infrastructure
     needs and assure the availability of critical facilities for the safe and efficient conduct of
     Agency missions.

     According to the Cross-Agency Support Program Manager, the facilities repaired with
     Recovery Act funds at Johnson in Houston, Texas, are crucial to NASA’s human
     spaceflight missions. These missions include completion of the remaining launches for
     the Space Shuttle Program, completion of assembly of the International Space Station
     (ISS), operation and use of the ISS, implementation of the Constellation Program
     including the Orion Project, and support for the Commercial Crew & Cargo Program.12

     The activities involve construction work, including repair of roofs and loggia on several
     dozen buildings at Johnson Space Center. They also include the replacement of leaking
     windows; waterproofing of exterior building walls; repair of street, parking lot, and
     sidewalk lights; reconstruction of a hangar at Ellington Field; and securing of a barge
     dock on Clear Lake.

     NASA created nine work packages (repair activities of a similar kind, area, or operation)
     that will be managed to the same schedule and subject to NASA’s standard processes and
     procedures for construction of facilities. Of the nine work packages, eight were awarded
     at the time of our review. In addition to these nine work packages, NASA is also
     awarding modifications to five existing Support Service Contracts to assist NASA with
     support services that go along with the necessary construction work.

     Orion Project. Recovery Act funds for the Exploration Mission Directorate were
     applied to the Constellation and Commercial Crew and Cargo Programs. Constellation
     systems currently in the development stage are the Orion Crew Exploration Vehicle
     (CEV), the Ares I Crew Launch Vehicle (CLV), and supporting mission and ground
     support systems. The Recovery Act funds were intended to support accelerated testing,
     procurement, and manufacturing to maximize NASA’s ability to meet a March 2015


     12
          In February 2010, the President submitted to Congress his FY 2011 budget request for NASA. A key
          feature is the termination of the Constellation Program at the end of FY 2010. As of the date of this
          report, Congress has not taken final action on the budget request.



14                                                                                          REPORT NO. IG-10-017
APPENDIX B

   Initial Operational Capability (IOC) date, when the first transport of the crew to the
   International Space Station (ISS) was planned.

   The Orion spacecraft is being designed to carry crewmembers to and from the ISS and on
   lunar missions. Once in orbit, Orion and its service module will rendezvous and dock
   with either the ISS or the Altair Lunar Lander and the Ares V Earth Departure Stage,
   which could propel astronauts on their way to the Moon.

   The Orion Crew Exploration Vehicle Project awarded a contract modification for the
   Recovery Act funded portion of the project under contract number NNJ06TA25CA to
   Lockheed Martin on August 19, 2009. The total contract modification amount is $165.9
   million. In May of 2010 the contract was modified as noted below. The total amount of
   Recovery Act funds applied to the Orion contract remained $165.9 million.

   According to NASA’s May 2009 Recovery Act Program Plan for Exploration, from
   August 2009 through May 2010, NASA applied Recovery Act funds to complete the
   design of ground test articles, engineering units, test, design and analysis for the Orion
   project. Elements of this work were originally planned to occur in FY 2011 but were
   accelerated into FY 2010 to inform the flight design. In May 2010, the planned Orion
   Project Recovery Act funded content was re-scoped to reduce risk to the completion of
   planned work for FY 2010, deemed to be higher priority than the originally scoped work
   that had been accelerated. For the remainder of the award, the Recovery Act funds will
   be used to fund the majority of the work performed under the Orion Lockheed Martin
   prime contract from May 29, 2010 to June 25, 2010. This shift in scope also assured the
   continuation of the Orion development contract further into this fiscal year and the
   preservation of the associated jobs.


Goddard Space Flight Center

   Landsat Data Continuity Mission. The Landsat Data Continuity Mission (LDCM) is a
   joint NASA-United States Geological Survey (USGS) mission to extend the LDCM
   system’s useful life and incorporate several data collection improvements. The LDCM
   satellites were designed for observing land surfaces, recording the Earth’s surface as seen
   from space, and providing spatial imagery and data illustrating human-induced large-scale
   environmental changes. Examples of these changes are the rapid expansion of desert
   cities like Dubai and Las Vegas; the deforestation of the Amazon rainforest; and the
   disappearance of the Aral Sea. LDCM-related research has led to the implementation of
   improved water management techniques, crop insurance fraud reduction, natural disaster
   relief planning, continental-scale carbon estimates, and extensive cartographic advances.

   Efforts to implement LDCM have been ongoing since the launch of Landsat 7 in 1999.
   The purpose of LDCM is to provide continuity to the Landsat 7 mission. The Landsat
   series of satellites has provided multispectral data of Earth’s surface on a global scale.
   LDCM has a projected launch date of June 2013 to replace the Landsat 5 and 7 satellites.



REPORT NO. IG-10-017                                                                             15
                                                                                        APPENDIX B

     The LDCM project received $63.4 million of Recovery Act funds, which NASA is using
     to continue work on the instruments, including the Thermal Infrared Sensor (TIRS), and
     spacecraft needed to sustain the more than 35-year record of continuous observations of
     the Earth provided by Landsat images. Recovery Act funds contributed to the:
            Design, development, and test of:
               o TIRS:
                       Cryocooler
                       Application-Specific Integrated Circuit (ASIC)
                       Programmatic, mission assurance, and engineering support for
                          TIRS
               o Operational Land Imager (OLI)
               o LDCM spacecraft

     Global Precipitation Measurement Project. The Global Precipitation Measurement
     (GPM) mission is one of the next generation of satellite-based Earth science missions that
     will study global precipitation (rain, snow, and ice). GPM’s stated goal is to address the
     difficulties of measuring precipitation from a ground-based system that can only measure
     a small area at one time. GPM provides the only practical way to obtain useful regional
     and global scale precipitation measurements from the vantage point of a space-based
     remote sensing instrument.

     GPM received $32 million in Recovery Act funds for the GPM Microwave Imager (GMI)
     #1 and GMI #2 instruments. The Recovery Act funding allowed essential near-year
     rephasing of activities to decrease mission schedule risk. Both were modifications to
     existing contracts; however, GMI #2 was treated as new contract scope because it
     involved procurement of additional equipment and starting the development on time.
     Recovery Act funds will be used to maintain the delivery date of GMI #1 and allow the
     construction of a second microwave imager GMI #2 as planned. According to Project
     officials, the funding allows essential near-year rephasing of activities to decrease mission
     schedule risk and run-out costs on GMI #2.

     Glory Project. Glory is a low Earth orbit (LEO) scientific research satellite designed to
     collect data on the properties of aerosols, including black carbon, in the Earth’s
     atmosphere and climate system and to collect data on solar irradiance for studying the
     long-term effects on the Earth climate record. The scientific community can use the data
     in determining whether the temperature increase and climate changes are byproducts of
     natural events or are human induced. This will enable a greater understanding of aerosols
     as agents of climate change.

     The project received $16 million of Recovery Act funds that were used to modify an
     existing contract awarded on August 14, 2009. Activities funded under the Recovery Act
     are those that will take the spacecraft into completion for launch and include efforts to:
            finish remaining work computers for the Payload Interface Processors (PIP);
            complete design, fabrication, test, and delivery additional PIPs;


16                                                                            REPORT NO. IG-10-017
APPENDIX B


          complete remaining work on the Observatory to accommodate the new PIPs;
          complete the Glory Ground Systems;
          prepare for Mission Operations of Glory Spacecraft;
          prepare for, pack and ship Glory spacecraft to launch site; and
          conduct launch.

   The Recovery Act funds are necessary to maintain the current workforce throughout the
   planned launch in calendar year 2010.

   Climate Change Sensors Investment. The Climate Change Sensors Investment by the
   National Oceanic Atmospheric Administration (NOAA), at both Goddard and Langley, is
   part of the National Polar-orbiting Operational Environmental Satellite System
   (NPOESS) Preparatory Project, which is jointly managed by the (NOAA) and NASA.

   Due to schedule slippages and cost overruns, in June 2006, NPOESS was restructured
   and four climate and space environment sensors were removed from the program. A
   memorandum of understanding (MOU) between NOAA and NASA was executed in
   February 2008 to initiate studies assessing the impact of restoring two of the climate
   sensors that play a critical role in assessing climate change data.

   NOAA received $48 million of Recovery Act funding for the climate sensor project. In
   July 2009, NASA and NOAA signed Amendment 2 to the MOU, which authorized
   NASA to continue the work on the Climate Sensors Investment and transferred the
   majority of the Recovery Act funding to NASA.

   Total and Spectral Solar Irradiance Sensor (TSIS). Through a reimbursable
   agreement with NOAA, $26.3 million of Recovery Act funding and procurement
   responsibility was transferred to the Goddard Space Flight Center for work on the Total
   and Spectral Solar Irradiance Sensor (TSIS) instrument. The TSIS instrument
          measures the total amount of solar energy coming into the Earth’s atmosphere, a
          fundamental element in understanding climate change, and
          helps to better differentiate between the natural and human causes of climate
          change and monitors the long-term energy shifts related to climate change.

   The TSIS instrument is in the development stage.

   On February 1, 2010, the White House decided to restructure the larger NPOESS
   program. However, the NOAA Climate Sensors Investment and the reimbursable
   agreements under which the Recovery Act funding was transferred to NASA were not
   impacted by this decision.

   James Webb Space Telescope Project. The James Webb Space Telescope (JWST) is
   NASA’s next-generation successor to the Hubble Space Telescope. The JWST is a large,
   space-based observatory with a 6.5-meter primary mirror optimized for infrared
   wavelengths, which will complement and extend the discoveries of the Hubble Space


REPORT NO. IG-10-017                                                                         17
                                                                                        APPENDIX B

     Telescope. The JWST will have longer wavelength coverage and greatly improved
     sensitivity. The longer wavelengths enable JWST to look further back in time to find the
     first galaxies that formed in the early Universe, and to look inside dust clouds where stars
     and planetary systems are forming today. Its scheduled launch date is June 2014.
     Recovery Act funds for the JWST Project will be used to retain jobs, maintain the
     schedule of key development activities, and improve the likelihood of launching on the
     planned date.

     JWST received $75 million of Recovery Act funds that will be applied as contract
     modifications to two major JWST contracts: Northrop Grumman Aerospace Systems
     ($65 million) and to the University of Arizona ($10 million). The Recovery Act funds
     were used to continue the work on the project and avoided a work stoppage on the design
     and development of the ground and space-based portions of the JWST observatory.


Langley Research Center

     Climate Sensors Investment. As at Goddard, the Climate Change Sensors Investment at
     Langley is part of the NPOESS Preparatory Project, which is jointly managed by NOAA
     and NASA.

     Due to schedule slippages and cost overruns in June 2006, NPOESS was restructured.
     This removed four climate and space environment sensors from the program and
     degraded four others. A MOU between NOAA and NASA was executed in February
     2008 to initiate studies assessing the impact of restoring two of the climate sensors that
     play a critical role in assessing climate change data.

     NOAA received $48 million of Recovery Act funding for the Climate Sensor Investment.
     In July 2009, NASA and NOAA signed Amendment 2 to the MOU which authorized
     NASA to continue the work on the Climate Sensors Investment and transferred the
     majority of the Recovery Act funding to NASA.

     Clouds and the Earth’s Radiant Energy System Flight Module 6 (CERES FM6)
     Instrument. Through a reimbursable agreement with NOAA, $21.2 million of Recovery
     Act funding and procurement responsibility was transferred to the Langley Research
     Center for work on the Ceres FM6 instrument. The Ceres instrument
            complements the TSIS measurements by providing information on how clouds
            influence the Earth’s energy balance and
            identifies the role of clouds in regulating climate.

     The Ceres FM6 instrument is in the development stage.

     On February 1, 2010, the White House decided to restructure the larger NPOESS
     program. However, the NOAA Climate Sensors Investment and the reimbursable




18                                                                            REPORT NO. IG-10-017
APPENDIX B

   agreements under which the Recovery Act funding was transferred to NASA were not
   impacted by this decision.


Ames Research Center

   Unitary Planned Wind Tunnel (UPWT) Facility. The UPWT Facility at Ames is a
   major part of NASA’s Aeronautics Test Program (ATP). ATP was created to preserve
   and promote the testing capabilities of one of a comprehensive set of research facilities in
   the United States. ATP develops and implements a facility investment and divestment
   plan to fully support the current and long-term missions of NASA, the Department of
   Defense, and American industry. The UPWT Facility at Ames includes an 11-foot
   transonic wind tunnel that is used extensively for airframe development and aerodynamic
   studies and played a vital role in every manned space-flight program, including NASA’s
   Crew Exploration Vehicle. In addition, the UPWT facility includes a 9 foot by 7 foot
   Supersonic Wind Tunnel that has provided ascent and reentry aerodynamic data for every
   NASA-designed, manned space-flight program, including NASA’s Space Shuttle and
   Constellation Programs.

   Recovery Act funding for the UPWT Facility will be applied to re-activating the
   Mitsubishi Make-Up Air System. Specific activities include reactivating an existing
   compressor, repairing tie lines, and replacing feeder cables. These improvements will
   result in improved tunnel reliability and productivity. Ames awarded a contract
   modification for the Recovery Act funded portion of the project under its existing
   Aerospace Testing and Facilities Operations Maintenance (ATOM) contract
   NNA09DB39C to Jacobs Technology, Inc. on October 14, 2009. The total contract
   modification amount is $9 million.

   High-End Computing Capability Project (HECC). The HECC at Ames is focused
   around the Columbia supercomputer and the associated network connectivity, data
   storage, data analysis and visualization, and application software support. The Science
   Mission Directorate funds and manages the HECC resources, which serve the
   supercomputing needs of all of NASA’s Mission Directorates. Science Mission
   Directorate funding supports the operation, maintenance, and upgrade of the
   supercomputing capability, while the Strategic Capabilities Assets Program exercises the
   oversight and insight functions.

   Recovery Act funding for the HECC project at Ames will be applied to two existing
   tasks: Ames Compute System and Ames Terrestrial Observation and Prediction System
   (TOPS). The Ames Compute System will increase the supercomputing capability for
   climate modeling. Ames awarded a contract modification for the Recovery Act portion of
   this task to Computer Sciences Corporation under contract NNA07CA29C on August 31,
   2009. The total contract modification amount is $5.1 million. The TOPS task will help
   develop specific computing resources for climate impact studies. Ames awarded a
   contract modification for the Recovery Act portion of this task to Computer Sciences



REPORT NO. IG-10-017                                                                              19
                                                                                    APPENDIX B

     Corporation under NNA07CA29C on October 14, 2009. The total contract modification
     amount is $900,000.

     Wildfire Research and Applications Partnership (WRAP) Activity. The WRAP
     Activity is part of the Earth Science-Applied Sciences Program. The program conducts
     research and development activities with collaborating organizations to use Earth Science
     observations, data, and research in environmental decision making and resource
     management. WRAP is a collaborative effort between Ames, California State University,
     United States Department of Agriculture-Forest Service, and the National Interagency
     Fire Center. The purpose of the activity is to develop and mature technologies to improve
     remote sensing capabilities for wildfire research applications.

     Recovery Act funding for the WRAP Activity will be focused on the application of
     NASA technologies to improve wildfire response and management through a
     collaborative decision environment. NASA and the United States Forest Service
     developed the Wildfire Collaborative Decision Environment (W-CDE), and Recovery
     Act funds will be used for research to enhance existing capabilities of the W-CDE to
     support pre-, active-, and post-fire assessments. NASA awarded a cooperative agreement
     to California State University-Monterey Bay for this work. The cooperative agreement
     was authorized on September 30, 2009, for $1.3 million.




20                                                                         REPORT NO. IG-10-017
APPENDIX C



                                                        REPORT DISTRIBUTION

National Aeronautics and Space Administration

   Administrator
   Deputy Administrator
   Chief of Staff
   Chief Financial Officer/Recovery Act Senior Accountable Official
   Recovery Act Implementation Executive

Non-NASA Organizations and Individuals

   Office of Management and Budget
      Deputy Associate Director, Energy and Science Division
          Branch Chief, Science and Space Programs Branch
   Government Accountability Office
      Director, NASA Financial Management, Office of Financial Management and
         Assurance
      Director, NASA Issues, Office of Acquisition and Sourcing Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

   Senate Committee on Appropriations
      Subcommittee on Commerce, Justice, Science, and Related Agencies
   Senate Committee on Commerce, Science, and Transportation
      Subcommittee on Science and Space
   Senate Committee on Homeland Security and Governmental Affairs
   House Committee on Appropriations
      Subcommittee on Commerce, Justice, Science, and Related Agencies
   House Committee on Oversight and Government Reform
      Subcommittee on Government Management, Organization, and Procurement
   House Committee on Science and Technology
      Subcommittee on Investigations and Oversight
      Subcommittee on Space and Aeronautics




REPORT NO. IG-10-017                                                            21
Major Contributors to the Report:
   Laura Nicolosi, Director, Mission Support Directorate
   John Apker, Project Manager
   Mark Benson, Auditor
   John Pacious, Auditor
   Tekla Szelong, Auditor
   Keren West, Auditor




REPORT NO. IG-10-017                                       23
                                                                                        JULY 27, 2010
                                                                        REPORT NO. IG-10-017




                                                                                OFFICE OF AUDITS

                                                                 OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
To obtain additional copies of this report, contact the Assistant Inspector General for Audits at
202-358-1232.


SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Audits.
Ideas and requests can also be mailed to:

      Assistant Inspector General for Audits
      NASA Headquarters
      Washington, DC 20546-0001


NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
